No.___________
IN THE SUPREME COURT OF THE UNITED
STATES

ESTATE OF MONROE F. MARSH, Deceased
______________________________________
MICHAEL WEISS, Individually and as Executor, etc.,
Petitioner
v,
DAMON MARSH, as Executor, etc. et. al.,
Respondents,
___________________________
ON PETITION FOR A WRIT OF CERTIORARI TO
THE CALIFORNIA COURT OF APPEALS, DISTRICT
4, DIV 3
_______________________________
PETITION FOR WRIT OF CERTIORARI
Michael A Weiss Bar #175272
LAW OFFICE MICHAEL WEISS
63 Lakefront
Irvine, California 92604
949-654-9919
Attorney for Petitioners
michael-weiss@msn.com

1. QUESTIONS FOR REVIEW

STATEMENT OF RELATED CASES: 19-713 is factually

(1) Whether Full Faith and Credit can be given to the

and legally related and petitioner will move to consolidate.

appellate opinion in G058123 and other of its specified

2. LIST OF PARTIES:

opinions; (2) Do Code of Civ.Proc. 391.7, Code of Civ.Proc.

Damon Marsh, Individually and as Co-Executor of

128.7, and/or the appellate opinion in G058123 and the

Estate of Monroe F. Marsh; Stephen Marsh Individually

prior opinions in this case it refers to, on their face or as

and as Co-Executors of Estate of Monroe F. Marsh and;

applied, violate the First Amendment and other provisions

Michael Weiss, Individually and as Executor of Estate of

of the Bill of Rights (3) Whether or not petitioner is himself

Jane L. Marsh. Stephen Marsh is now deceased and Jane

a vexatious litigant may he challenge statute on its face as

Hodson Marsh is Administrator of Estate of Stephen Marsh

void for overbreadth in violation of the 1st and 14th

but made no appearance; and, neither has anyone else in

amendments and (4) Whether declaring a specified grant

his stead

deed to be void as a result of above alleged violations is a

3. TABLE OF CONTENTS
Page
ii
1. QUESTION PRESENTED
i
STATEMENT OF RELATED CASES
2. LIST OF PARTIES
ii
4. JURISDICTION & STATUTORY BASIS
1
5. CONSTITUTIONAL CLAUSES & STATUTES
1
6. STATEMENT OF THE CASE
1
7. ARGUMENT
4
A. VOID GRANT DEED FALLS AS RESULT OF
VOID COURT OPINIONS AND SUCH DECLARATION
IS NECESSARY FOR PROPER DISPOSITION OF
THIS CASE
B. CALIFORNIA’S VEXATIOUS LITIGANT
16

proper remedy in these proceedings.

i

ii

STATUTES AND APPELLATE OPINIONS VIOLATE
THE FIRST AMENDMENT
C. NO FULL FAITH AND CREDIT CAN BE
GIVEN TO APPELLATE OPINION IN GO58123
BY THIS COURT
CONCLUSION
APPENDIX TABLE OF CONTENTS
1. Opinion Filed 8-30-19 Dismiss Appeal G058123
2. Minute Order Filed 6-4-19 Granting Final Probate
Distribution, and re: Objections and Cross Complaint
3. Minute Order Filed 7-31-19 Denying Motion to
Vacate Pre Filing Order and Remove Name From
Vexatious Litigation List & Form Order
4. Minute Order Filed 2-7-17 CCP 391.7 Vex Litigant
5. Order Filed 2-10-15 CCP 128.7 Vex Lit (Partial)
6. Consolidation Order filed 8-12-10
7. Order filed 11-20-19 Cal Supreme Court
8. Constitutional Clauses & Statutes Involved
9. Time, Method & Manner of Raising &
Denying Federal Issues
A. Prior Restraint
B. U.S. Constitution Rights
C. Fundamental Principles
D. Lack of Juris in Probate & Unclean Hands re
$640,000 cashier check
E. J.L.M Notice of Election to take Under Law
F. Ct Appeal Acknowledge Heir Could Pay
Mortgage
G. Unfairness Issue
H. False Recitals in Orders
10. Other Materials Essential to
Understanding the Petition
A. Trust Deed Payoff Docs

iii

45

1
2
7

9
14
17
22
23
38
38
42
51
52
54
56
56
58
59
59

TABLE OF AUTHORITIES
CASES
Aitchison v. Bank of America Nat. Trust & Savings
Ass’n (1937) 8 Cal.2d 400 [65 P.2d 890]. . . . . . . . . . 16
Armstrong v. U. S. (1960) 364 U.S. 40 [80 S.Ct. 1563]. 17
Bond v. U.S. (2011) 564 U.S. 211 [131 S.Ct. 2355, 180
L.Ed.2d 269]. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 52
Cantwell v. State of Connecticut (1940) 310 U.S. 296 [60
S.Ct. 900, 84 L.Ed. 1213]. . . . . . . . . . . . . . . . . . . . . 41
Carroll v. President and Com’rs of Princess Anne (1968)
393 U.S. 175 [89 S.Ct. 347, 21 L.Ed.2d 325]. . . . . . 35
Citizens’ Savings & Loan Ass’n v. City of Topeka (1874)
87 U.S. 655 [22 L.Ed. 455, 20 Wall. 655]. . . . . . . . . 18
Cox Broadcasting Corp. v. Cohn (1975) 420 U.S. 469 [95
S.Ct. 1029, 43 L.Ed.2d 328]. . . . . . . . . . . . . . . . . . . 31
Dennis v. United States (1951) 341 U.S. 494 [71 S.Ct.
857, 95 L.Ed. 1137]. . . . . . . . . . . . . . . . . . . . . . . . . . 41
Fleisher v. Continental Auxiliary Co. (1963) 215
Cal.App.2d 136 [30 Cal.Rptr. 137]. . . . . . . . . . . . . . 10
Harrison v. St. Louis & S.F.R. Co. (1914) 232 U.S. 318
[34 S.Ct. 333, 58 L.Ed. 621]. . . . . . . . . . . . . . . . . . . 31
Holder v. Humanitarian Law Project (2010) 561 U.S. 1
[130 S.Ct. 2705, 177 L.Ed.2d 355]. . . . . . . . . . . . . . 43
Koontz v. St. Johns River Water Management Dist.
(2013) 570 U.S. 595 [133 S.Ct. 2586, 186 L.Ed.2d
697]. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49
Louisville Joint Stock Land Bank v. Radford (1935) 295
U.S. 555 [55 S.Ct. 854, 79 L.Ed. 1593]. . . . . . . . . . . 16
Luckett v. Panos (2008) 161 Cal.App.4th 77. . . . . . . . 39
Luscomb v. Fintzelberg (1912) 162 Cal. 433 [123 P. 2471]3.
In re Marriage of Marsden (1982) 130 Cal.App.3d 426
[181 Cal.Rptr. 910]. . . . . . . . . . . . . . . . . . . . . . . . . . 12
In re Marriage of Moore (1980) 28 Cal.3d 366 [168
Cal.Rptr. 662]. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Marsh v. State of Ala. (1946) 326 U.S. 501 [66 S.Ct. 276,
iv

90 L.Ed. 265]. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42
Members of City Council of City of Los Angeles v.
Taxpayers for Vincent (1984) 466 U.S. 789 [104 S.Ct.
2118, 80 L.Ed.2d 772]. . . . . . . . . . . . . . . . . . . . . . . . 44
Near v. State of Minnesota ex rel. Olson (1931) 283 U.S.
697 [51 S.Ct. 625, 75 L.Ed. 1357]. . . . . . . . . . . . . . . 41
Organization for a Better Austin v. Keefe (1971) 402
U.S. 415 [91 S.Ct. 1575, 29 L.Ed.2d 1]. . . . . . . . . . . 23
Peltz v. Clarke (1831) 30 U.S. 481 [5 Pet. 481, 8 L.Ed.
199]. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Phelps v. American Mortg. Co. (1940) 40 Cal.App.2d 361
[104 P.2d 880].. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
In re R.H. (2009) 170 Cal.App.4th 678. . . . . . . . . . . . . 39
Schneider v. State of New Jersey, Town of Irvington
(1939) 308 U.S. 147 [60 S.Ct. 146, 84 L.Ed. 155]. . . 41
Scott v. McNeal (1894) 154 U.S. 34 [14 S.Ct. 1108, 38
L.Ed. 896]. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
St. Romes v. Levee Steam Cotton-Press Co. (1888) 127
U.S. 614 [8 S.Ct. 1335, 32 L.Ed. 289]. . . . . . . . . . . . 46
Surowitz v. Hilton Hotels Corp. (1966) 383 U.S. 363 [86
S.Ct. 845, 15 L.Ed.2d 807]. . . . . . . . . . . . . . . . . . . . . 44
Thomas v. Collins (1945) 323 U.S. 516 [65 S.Ct. 315, 89
L.Ed. 430]. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41
Thompson v. Whitman (1873) 85 U.S. 457 [21 L.Ed. 89571].
Town of Castle Rock, Colo. v. Gonzales (2005) 545 U.S.
748 [125 S.Ct. 2796, 162 L.Ed.2d 658]. . . . . . . . . . . 10
Tulsa Professional Collection Services, Inc. v. Pope
(1988) 485 U.S. 478 [108 S.Ct. 1340, 99 L.Ed.2d 5655].3
U.S. v. Butler (1936) 297 U.S. 1 [56 S.Ct. 312, 80 L.Ed.
477]. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
U.S. v. Dunn (1925) 268 U.S. 121 [45 S.Ct. 451, 69 L.Ed.
876]. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
U.S. v. James Daniel Good Real Property (1993) 510
U.S. 43 [114 S.Ct. 492, 126 L.Ed.2d 490]. . . . . . . . . 40
Vance v. Universal Amusement Co., Inc. (1980) 445 U.S.
v

308 [100 S.Ct. 1156, 63 L.Ed.2d 413]. . . . . . . . . . . . 45
STATUTES
28 U.S.C. 1257. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
28 U.S.C. 2403(e).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
42 U.S.C. 1983. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Cal. Const. Art. 6 Sec 4. . . . . . . . . . . . . . . . . . . . . . . . . 14
U.S. Const. Art 3 Sec 2. . . . . . . . . . . . . . . . . . . . . . . . . . 6

CITATION OF OPINIONS ENTERED IN THE CASE:
2012 WL 385441; 2012 WL 384625; 2012 WL 606-3534;
2014 WL 266-7709; 2016 WL 658-1173; 2016 WL 657-6490;
2016 WL 667-0443; 2018 WL 173-7161; 2018 WL 173-7177;
139 S.Ct. 1558, 203 L.Ed.2d 714 [2019 WL 1590263]; 139
S.Ct. 2768, 204 L.Ed.2d 1149 [2019 WL 2570769]

vi

4. JURISDICTIONAL BASIS
This petition is filed under U.S. Const. Art 3 Sec 2, this

Marsh died. On 11-23-09 Jane L. Marsh his wife elected to
take her rights under law and not under Monroe’s last will.

Courts inherent jurisdiction, 28 U.S.C. 1257 and Rule

On 12-28-09 the trustee on Monroe Marsh’s trust deed gave

12(4), 13(3), [and 24(a)(1)], re infringement of U.S.

notice of default. On 2-4-10 Weiss purchased a $638,963.86

Constitutional rights, privileges and immunities as

cashiers check which he loaned to his mother Jane L.

specified in Appx 9(A-) p. 38-60. The date of the last opinion

Marsh so she could acquire whatever interest Monroe

sought to be reviewed is 8-30-19 in G058123 and per Rule

Marsh held in the Irvine condo. On 3-3-10 Jane L. Marsh

12(4) all the judgments in this case of the California 4th

contracted to sell the Irvine condo to Weiss. On 3-11-10

Appellate District are sought selective and permissive

Weiss sent a letter to mortgage lender with inquiry about

review of as authorized by this Court. No petition for

the execution of the reconveyance deed; and, on 3-17-10 a

rehearing was filed in Court of Appeals. A petition for

reconveyance deed was filed, showing its execution date on

review was denied by California Supreme Court on 11-20-

2-23-10. For review is the final opinion in G058123 dated 8-

19. Per Rule 29.4(c), 28 U.S.C. 2403(e) may apply.

30-19 (Appx 1 p. 1). G058123 concerns a petition and order

5. CONSTITUTIONAL PROVISIONS AND STATUTES

in probate for final distribution which was granted; and, an

See Appx 8.

objection and cross complaint under 42 U.S.C. 1983 which

6. STATEMENT OF THE CASE

was denied (Appx 2 p. 6), and a 7-31-19 Minute & Form

The following facts are taken from Appx 10 (judgment
roll evidence Probate Code 1050): On 11-22-09 Monroe F.
1

Order denying application to Vacate a Vexatious Litigant
Order and to reopen the probate final distribution
2

proceedings (Appx 3 p. 8). The initial appeal decision in

$530,000 to their attorney Mr. Magro. The California

G044938 and all subsequent opinions (except appeal over

Supreme Court denied review on 11-20-19 (Appx 7 p.46).

granting probate of Monroe’s last will) concerned only

Petitioner contends the appeal and trial courts failed to

questions of law. G044938 refused to determine the

read Petitioners papers which resulted in half truths mis-

$640,000 reimbursement matter, and ordered Jane L.

determined that Jane L. Marsh had no property interests.

Marsh to file any new pleadings in the court sitting in
probate according to probate law and practice; so, Jane L.
Marsh immediately filed 11 probate petitions because each
proceeding in probate is separate and independent from

"Half a truth is often a great lie." ~ Benjamin Franklin.
"Independence means you decide according to the law
and the facts." ~ Stephen Breyer, Supreme Court
Justice. "There are loads of countries that have nice
written constitutions like ours. But there aren't loads of
countries where they're followed." ~ Stephen Breyer,
Supreme Court Justice. "By failing to prepare, you are
preparing to fail." ~ Benjamin Franklin

others (instead of one amended civil complaint) all of which
were dismissed on res judicata and related grounds, for
which filings and dismissals two vexatious litigant prior

7. ARGUMENT
A. VOID GRANT DEED FALLS AS RESULT OF VOID
COURT OPINIONS AND SUCH DECLARATION IS
NECESSARY FOR PROPER DISPOSITION OF THIS
CASE.

restraint orders were entered (Appx 4 p. 10 & 5 p. 17)
Town of Castle Rock, Colo. v. Gonzales (2005) 545 U.S.
which have operated to deprive her executor of right to
748, 757 [125 S.Ct. 2796, 162 L.Ed.2d 658] held that
appeal in the present and past. About $1.3 million of Jane
although the underlying standard of property interest
L. Marsh’s separate and community interests has been
existence is created by state laws, federal constitutional
distributed to her husbands last will devisees, some
law determines whether that interest rises to a legitimate
3

4

claim of entitlement protected by the due process clause.

Citrus court. In our case trustee MERS exercised is

The following California cases show Jane L. Marsh’s

contract power of disposition and followed paragraphs 10

entitlement to the Irvine condo because of Monroe’s F.

and 16 of Monroe’s trust deed making it’s reconveyance

Marsh’s trust deed trustee reconveyance deed to her:

deed a fully executed contract under Civil Code 1034. The

Fleisher v. Continental Auxiliary Co. (1963) 215

following California laws show Jane L. Marsh’s entitlement

Cal.App.2d 136, 139 [30 Cal.Rptr. 137] Phelps v. American

to the Irvine condo: California Constitution article 1 section

Mortg. Co. (1940) 40 Cal.App.2d 361, 373-374 [104 P.2d

21 (separate property) in conjunction with article 1 section

880] and Citrus El Dorado, LLC v. Chicago Title Co. (2019)

26 (mandatory and prohibitory clause); Fam. Code 751;

32 Cal.App.5th 943, 949 [244 Cal.Rptr.3d 372]. They all

Probate Code 7000 (devisees take subject to the rights of

echoed the California principle of law that a trustee under

others namely Jane L. Marsh’s and Estate of Jane L.

a trust deed is not a ordinary trustee with fiduciary duty

Marsh); Probate Code 100 (community property and

because he is some kind of double agent for the mortgagee

accumulations and Moore-Marsden interests (In re

and mortgagor thus having inherent conflict of interest; but

Marriage of Moore (1980) 28 Cal.3d 366 [168 Cal.Rptr. 662]

takes his power per contract. Fleisher cited the Carpenter

In re Marriage of Marsden (1982) 130 Cal.App.3d 426 [181

case for the holding that if a power to convey under

Cal.Rptr. 910]); and Probate Code 6600(b) & (c) (Irvine

prescribed conditions is contained in the trust deed it is the

condo excluded from Monroe’s estate). Because the

trustee’s ministerial duty to so reconvey. And so did the

judgment roll evidence (Appx 10) showed Jane L. Marsh

5

6

had entitlement to her separate property interests the

[123 P. 247] both echoed the same principle of law. In our

converse must be said about Respondent entitlement to it

case Jane L. Marsh and petitioner never dismissed her

and the lack of the probate and appeals court subject

appeals concerning her right to restitution in specie. In the

matter jurisdiction over it. There is no prohibition in

Dunn case as an ours Respondent knowingly misused their

California law against inserting powers of appointment in

fiduciary power to dispose of Jane L. Marsh separate

trust deeds and so today this Court may take opportunity

property under the guise that it was property belonging in

to create some new common law precedent for the benefit of

the estate of her deceased husband and did so to benefit

all US and foreign citizens who may have property in

themselves. Their petitions to confirm sale of the Irvine

California and want to insert a power of appointment

condo and distribute its proceeds were hence feigned

regarding it, in addition to its existing 16 cases. Across the

controversies resulting in feigned orders. Jane L. Marsh

globe some approximate 8 billion persons must dispose of

and Estate of Jane L. Marsh pleadings always sought in

their property, whether it be by way of inter vivos power of

the alternative either restitution of title or reimbursement

appointment or by last will. Individuals, corporations,

as in the Dunn case. Because the court sitting in probate

associations, partnerships, and even the federal and state

had no subject matter jurisdiction over Jane L. Marsh’s

governments all must dispose of their property.

separate property including the Irvine condo since her civil

U.S. v. Dunn (1925) 268 U.S. 121 [45 S.Ct. 451, 69 L.Ed.
876] and Luscomb v. Fintzelberg (1912) 162 Cal. 433, 443

7

cause was assigned for all purposes to Judge Banks; and
because the Cal. Const. Art. 6 Sec 4 in conjunction with

8

Art. 1 Sec. 26 prohibited dismisal by any other Department

Peltz v. Clarke (1831) 30 U.S. 481, 483-484 [5 Pet. 481,

of Court; and because prior restraints were prohibited per

8 L.Ed. 199] is nearly identical to the facts in our case

Cal. Constitution Art 1 Sec 2(a) (Appx), the California

because Jane L. Marsh paid the underlying $640,000 debt

Judiciary and Legislature had no U.S. Constitution 10th

per paragraphs 10 and 16 of her deceased husband’s trust

Amendment power to impose prior restraint, nor dismiss

deed and did so on her own behalf and became the owner of

the civil cause, nor take subject mater jurisdiction of her

whatever Monroe had conveyed to his trustee under his

separate property. Further, because of violation of other

trust deed. In our case the only difference is the existence of

U.S. Constitution clauses including its Due Process, Equal

a trust deed in addition and subsequent to a reverse

Protection, Association, Petition, and the fundamental

mortgage contract.

principles recognized thereunder. This court is asked to

Aitchison v. Bank of America Nat. Trust & Savings

declare void the grant deed from Monroe’s co-executors to

Ass'n (1937) 8 Cal.2d 400, 404 [65 P.2d 890] as applied to

Mr & Mrs Yi for the Irvine condo. This remedy would clear

the facts of our case holds that after the reconveyance deed

the title back to Jane L. Marsh. This remedy appears more

was executed, delivered and accepted by Jane L. Marsh,

direct than under the doctrine that equity regards as done

that Respondent were strangers to the reconveyance deed

that which ought to have been done by way of imposing a

as well as whatever title Monroe held theretofore.

constructive trust order upon the Yi’s. Estate of Jane L.
Marsh today has no adequate remedy at law left.

9

Louisville Joint Stock Land Bank v. Radford (1935) 295
U.S. 555, 601 [55 S.Ct. 854, 79 L.Ed. 1593] held that a

10

statute, as applied, violated the U. S. Constitution Fifth

court power to allow possession to trustees is just a stay

Amendment by taking from one person his property

premised upon the assumption that all of the mortgagee’s

interest lien rights and giving them to another private

rights will remain intact. The High Court said as applied to

person without paying compensation, making the statute

our case (Id. p. 46) that the mortgage law did not prohibit

void and requiring reversal of the court’s judgment. This

subsequent trust deed contract arrangements of the owner.

Court held that in order to accomplish that goal the

In our case Jane L. Marsh’s contractual trust deed rights

plaintiff must resort to eminent domain proceedings (Id. p.

and interest in the Irvine condominium under paragraphs

602). In our case Monroe’s co-executors never filed or

10 and 16 related back to the day Monroe F. Marsh

proved up an eminent domain proceeding so the appellate

executed his trust deed in October 2002.

opinion in G058123 represents a attermpted destruction of

Citizens’ Savings & Loan Ass’n v. City of Topeka (1874)

Estate of Jane L. Marsh’s separate property as in the cited

87 U.S. 655 [22 L.Ed. 455, 20 Wall. 655] held that even in

case (Id. p. 594).

the absence of a U. S. Constitution Clause prohibiting

Armstrong v. U. S. (1960) 364 U.S. 40 [80 S.Ct. 1563]

taking of property without paying compensation, there was

held the same as in Louisville, supra. In bankruptcy the

at common law an implied limitation built into every state

bankruptcy statutes, like the probate statutes in California,

government prohibiting the same (Id. p. 663). It gave as

do not enlarge nor diminish the substantive rights or

applied to our case the example of taking Jane L. Marsh’s

privileges of a mortgagee (Id. p. 582); and, the bankruptcy

title and security interests in the Irvine condo and

11

12

distributing it to her husband’s devisees. This implied duty

agency cannot be ratified (Id. p. 78). The powers delegated

rest upon not just the legislative and executive

may be express or implied but attainment of a prohibited

departments but also on the Judiciary (Id. p. 664-665).

end may not be accomplished under the pretext of the

Finally this Court held that, as applied to our facts,

exercise of powers which are conferred (Id. p. 68) any more

payment by the purchasers to the co-executors did not work

than under an ostensible (Id. p. 69) exercise of such powers.

any estoppel because the sale was void and no payment in

Misuse of U. S. Constitution 10th Amendment State Power

regards to it can create of itself the power which never

to wrest away not only Jane L. Marsh’s title interest but

existed (Id. p. 667).

also her $640,000 cash and security interest in order to

U.S. v. Butler (1936) 297 U.S. 1 [56 S.Ct. 312, 80 L.Ed.

“give” a small portion of it to Monroe’s devisees and the

477] first answered a lack of standing contention by holding

majority of it, some $530,000 to their attorney Stephen

the tax imposition was merely a step in an unauthorized

Magro has occurred.

statutory scheme (Id. p. 58). The same is true in our case of

Scott v. McNeal (1894) 154 U.S. 34 [14 S.Ct. 1108, 38

the prior restraint opinion in G044938 and the statutory

L.Ed. 896] held that no state department whether

prior restraint orders. All powers of the State judiciary are,

legislative, judicial, or executive, can declare by mere

as in the rest of the law, powers that are either conferred,

pronouncement anything on any matter without

retained, or prohibited; and, without original power there is

fundamental jurisdiction; and, if such pronouncement takes

nothing but usurpation which under the normal law of

property of another without payment of just compensation

13

14

it violates the U. S. Constitution Due Process Clause (Id. p.

of Civ.Proc. 1916 is declaratory of the same principle of law.

50-51). Devisees and purchasers pursuant to same acquire

(Appx 8) "By ensuring that no one in government has too

no property rights (Id. p. 49). In the cited case this Court

much power, the Constitution helps protect ordinary

held by way of writ of error a direct attack on the State

Americans every day against abuse of power by those in

Supreme Court opinion; and allowance of a collateral

authority." ~ John Roberts, Supreme Court Justice. "The

attack on the trial court orders of the court sitting in

Supreme Court, of course, has the responsibility of

probate (Id. p. 37, 45, 47, 49). In our this court may wish to

ensuring that our government never oversteps its proper

take collateral review of trial court orders and other

bounds or violates the rights of individuals. But the Court

appellate opinions; and, not just the last appellate opinion

must also recognize the limits on itself and respect the

because if the court sitting in probate had no fundamental

choices made by the American people." ~ Elena Kagan,

jurisdiction over Jane L. Marsh’s separate property neither

Supreme Court Justice. "A judge can't have any preferred

did the Appeals Court; and, every act of Monroe’s personal

outcome in any particular case. The judge's only obligation

representatives were likewise void and they became

- and it's a solemn obligation - is to the rule of law." ~

trespassers (Id. p. 49). When the absence of fundamental

Samuel Alito, Supreme Court Justice.

jurisdiction appears during a direct attack by proof in the

B. CALIFORNIA’S VEXATIOUS LITIGANT
STATUTES AND APPELLATE OPINIONS VIOLATE THE
FIRST AMENDMENT

ROA; or, by proof in the judgment roll on collateral attack,
the fundamental jurisdiction is impeached (Id. p. 50). Code

15

California’s vexatious litigant scheme including Code of

16

Civ.Proc. 391.7 is grounded on content namely petition

restraint on the exercise of free speech in the condemnatory

clause speech including but not limited to pleadings,

sense- that is- not issued as a remedy in a specific case

motions and appeals. Nothing requires the injunction to be

based upon a finding of prior adjudication of unlawful

limited to a pending case as a remedy therein but is a

speech. See Organization for a Better Austin v. Keefe

statute designed to regulate the rights of persons to file in

(1971) 402 U.S. 415, 418-419 [91 S.Ct. 1575, 29 L.Ed.2d 1]

the California federal and state courts as a matter of

(injunction operates not to redress private wrongs but to

general public statutory regulation of speech. Code of

suppress speech on the basis of previous speech) and Near

Civ.Proc. 391.7 does not even require a finding of unlawful

v. State of Minnesota ex rel. Olson (1931) 283 U.S. 697 [51

or unconstitutional speech to make its status

S.Ct. 625, 75 L.Ed. 1357] (injunction not aimed at redress

determination. Content is also considered when

of private wrongs by way of punishment; but, suppression).

determining the validity of subsequent restraints. Code of

In our case the RT reveals that Trial judge said she would

Civ.Proc. 391.7 authorizes the supervising judge/justice

issue it even in the absence of a pending case and she

(hereafter referred to as censor) to restrain a subsequent

issued her 2nd prefiling order because her first prior

pleading or appeal based on content; namely, solely to

restraint order under Code of Civ.Proc. 128.7 (Appx 5) was

harass or solely to delay and the word “solely” implies no

not effective to terminate Weiss from filing any new papers;

combination of the two states of mind (Appx 4 shows no

and, it was applied whether or not he was in pro per on his

sole state of mind). Code of Civ.Proc. 391.7 is a prior

own behalf and hence is being used to prohibit his filing

17

18

new litigation on behalf of his client. The RT of Trial

like that of Code of Civ.Proc. 391.7, et seq which restrains

judge’s 2nd prefiling order shows she made no finding of

as a matter of general law and not as a matter of injunctive

fact that any prior filings by him or his client contained

relief in a pending case. Without a ruling from this court

unconstitutional or unlawful speech but simply because he

today it is easy to see that more than the existing 7 other

probably would file more papers since the probate case was

states such as Texas in Case No 19-713, will enact similar

not finished but had one more final distribution proceeding

statutes and the loser would be free speech which means

to go. Code of Civ.Proc. 391.7 is initially not directed

the loser is the United States of America whose interest it

merely at the message content but also at the reaction of

is in upholding the First Amendment rights, privileges and

the listener decisionmaker who determined whether the

immunities from encroachment by the states of the Union.

spech should win or loose a motion, case, or appeal, as it

Code of Civ.Proc. 391.7 did not even require a new

requires proof of 5 “lost” motions within 7 years. Code of

summons or complaint in its in rem special proceedings

Civ.Proc. 391.7 does not require the loss to be on the merits

under Title 3A to alter the legal status of a person; nay,

but could be for failure to state a viable cause of action etc.

just a motion and no newspaper publication even then.

This court has noted that the people who voted in the First

California law does not allow status changes in other cases

Amendment did so because of their hostility to prior

such as in divorce to be made by simple motion practice.

restraints and there is not one case in the history of the

Every cause of action is a form of property yet it is taken

U.S. Supreme Court dealing with prior restraint statutes

without payment of just compensation under Code of

19

20

Civ.Proc. 391.7 and furthermore the very existence of the

and appeals refused to quash it. Code of Civ. Proc. 1008(b)

statute infringes upon every other right under the United

& (e) prohibited judicial entertainment of the motion

States Constitution. Even if a new litigation concerns

because the declaration accompanying it did not identify

national security emergency needs alleging imminent

the judge to whom the first motion for a prefiling order was

physical destruction of the United States it will be

made. More to the point void orders/opinions lead to not

prohibited from filing; and 6 weeks was the average time of

only further void orders but also void personal

censor judge review in our case. The right to jury trial is

representative transactions when grounded on such initial

taken away, and procedural and substantive rights

void order/opinion such as the first through final probate

fundamental under the United States Constitution are

distribution orders and appeals. In our case the prior

taken away. Code of Civ.Proc. 391.7 is viewpoint based.

restraint orders are not merely void due to absence of

Petitioners case could have been “lost” due to a biased

California subject matter jurisdictional requirements; but,

prosecutor or biased judge as Petitioner’s cross-complaint

due to violation of the U.S. Constitution Free Speech,

under 42 U.S.C. 1983 alleged. In our case Respondent had

Petition, Due Process (procedural and substantive), Equal

no standing under Code of Civ.Proc. 1008(b) & (e) (Appx 8)

Protection, Excessive Punishment and State Power

to file their 2nd motion for a prefiling order because those

Clauses. California Code of Civ. Proc. 367 limits standing

subsections were express mandatory and jurisdictional

to real parties in interest; yet, Respondent showed no

requirements; yet despite challenge thereunder both trial

connection to any John Doe or Mary Jo let alone any

21

22

connection with the filings against them by way of what

state courts in California police against its self defined

occurred in this case because Jane L. Marsh’s separate

classification of vexatious litigants in order to prohibit

property was never a part of her deceased husbands

them from filing any new litigation; and, the remedy is all

probate estate and hence it was beyond the State’s 10th

or nothing because either permission is granted to file a

Amendment power to order she must litigate her contract

new litigation or it is denied as there is no authority in

rights in probate. Respondent never had constitutional

Title 3A to merely strike out various paragraphs or causes

standing to file a 2nd motion for a prefiling order seeking a

of action. The federal courts fashion their own remedies,

worldwide remedy on behalf of all the possible defendants

are bound by their own practices and procedures, as well as

in the world. Code of Civ.Proc. 391.7 also unnecessarily

the U.S. Constitution Art 4 Sec 2 jurisdictional

burdens the federal courts by requiring them to expend

requirements which are supreme. Code of Civ.Proc. 391.7

their resources and their time by reviewing new litigation

imposes a status discrimination just like age, race, and

to determine whether it was filed solely to harass, solely to

gender discrimination. The application to file new litigation

delay, or had no merit, as contrasted with the federal test

begins with the words “I am a vexatious litigant”. Hence

of colorable merit. Yet the California legislature failed to

subconscious stereotyping is perpetuated instead of giving

allocate any money to the federal courts to perform such

a completely neutral examination to a proposed pleading.

services. The California Legislature in Code of Civ.Proc.

The public may view such applications; and, regard

391.7 acted as a worldwide monarch to have federal and

vexatious litigant’s as being an unpopular group, yet not

23

24

grounded on any prior adjudication of unconstitutional

further enforcement of such prior restraint, overbreadth,

speech and hence for reasons beyond their control as

discrimination and annulment of all opinions herein and

measured under the U.S. Constitutional Free Speech

statutes grounded on prior restraint.

Clause. Are vexatious litigants a new class of persons
entitled to special U.S. Constitutional protection similar to
race, religion, sex, or national origin. Everyone in the world
is thus invited to discriminate against them as their
privacy rights in identity is not required to be shielded as
in Cox Broadcasting Corp. v. Cohn (1975) 420 U.S. 469 [95
S.Ct. 1029, 43 L.Ed.2d 328]. The goal and purpose of the
United States Constitution is elimination of discriminatory
bias in all systems; the Equal Protection clause and every

Harrison v. St. Louis & S.F.R. Co. (1914) 232 U.S. 318
[34 S.Ct. 333, 58 L.Ed. 621] said:
“The assignments of error in general terms assail the
overruling of the demurrer, the striking of matter from
the answer, and the final decree. The propositions,
however, which are urged at bar to sustain these
general assignments, are numerous and we think in
some aspects redundant. We hence come to consider the
fundamental propositions necessary to be taken into
view in order to determine whether the court below was
right in holding that the law under which the secretary
of state acted, as well as the action of that officer, was
void because inconsistent with the judicial power of the
United States, reserving until that is done such
separate consideration of the propositions relied on as
we may deem it necessary to make.”

other clause in the United States Constitution is so geared.
As in the Harrison case this petition for certiorari seeks
Create your own blacklist against your litigant loosers by
review collaterally or permissively of everything from the
use of numbers says the California Legislature to other
first appeal to the last; and, it may be that the dispositive
states in the union and to the governments of other
issues are whether the appellate opinions in G0449382 and
countries. Petitioners seek a permanent injunction against
G058123 are void because inconsistent with the States 10th
25

26

Amendment power; or, the United States power (Id.p. 3 to
7), or are not entitled to Full Faith and Credit. G044938

federal court on diversity basis:

executors) were residents of Utah and when removal to the

“P. 7 All challenges to administration of a decedents
estate must be brought in probate proceedings; p. 10
Jane’s claims must be tested under California family
law in the context of an administration of the probate of
Monroe’s estate; the Pereira-Van Camp claim would
necessarily have had to be brought under the
procedures of probate administration and not as a civil
action; p. 11 we express no opinion as to the right or
status of any claim by Jane for reimbursement of her
$633,061 to pay off the reverse mortgage. Even here any
such claim should have been made in the probate
proceedings, not a separate civil action.”

federal court was suggested it was vociferously objected to

The Court of Appeal in G044938 did not address its

directed Jane L. Marsh to file all her future pleadings in
the state superior court sitting in probate according to
probate law and procedure which operated to prevent free
speech in the form of diversity removal to the federal courts
because both Stephen and Damon Marsh (Monroe’s co-

and quashed. The right to file in federal court should not be

appellate jurisdiction; but, rather the right or appealability

restrained controlled or burdened by state authority; and, it

of Jane L. Marsh to file her appeal (Id p. 3). Under Cal

followed that when a state statute penalizes, forbids, or

Constitution Art 6 sec 11(a) appellate jurisdiction was

controls, access to the federal court on the ground that

limited to “causes” which are types of claims over which the

pleadings are unauthorized or illegal that the same is

trial court had original subject matter jurisdiction; not, to

prohibited (Id.p. 329). The following passages from

the effect of court orders since orders are not causes. The

G044938 show prior restraint on Jane L. Marsh’s free

Cal Constitution secondly authorized appeal as provided by

speech rights and prohibition upon her right to file in the

probate statute; but, since Jane L. Marsh’s civil cause

27

28

never “arose under”any probate code statutory proceeding

necessary to assure a fully informed use of discretion by the

as required by Probate Code 800 and Probate Code 7050

judge who is to balance the interests of the speaker, the

the demurrer and dismissal of her civil cause was not a

state, and the United States (Id.p. 183-184). The reporter’s

probate order statutorily authorized. Hence the Court of

transcript to the 2nd pre filing order proceeding in our case

Appeals in G044938 was without 10th amendment power

shows an absence of full and fair adversary hearing since

under its own Constitution to entertain the appeal. This

Trial judge directed Petitioner to stop speaking at least 10

court cited its Herndon case (Id.p. 332) for its holding that

times; that she admitted that the timing of the motion was

there is no US 10th amendment state power in any state, to

too short and she had not even read the 2nd set of papers

directly or indirectly destroy or deprive any right, privilege,

Petitioner had filed but that she would attempt to read

or immunity conferred by the Constitution and laws of the

them thereafter. She could not find them thereafter yet did

United States.

not order any continuance or await decision until she could

Carroll v. President and Com'rs of Princess Anne (1968)

locate them in order to make a fully informed decision

393 U.S. 175 [89 S.Ct. 347, 21 L.Ed.2d 325] grounded its

based upon them either. Such is contended to be pre-

holding solely on the ex parte nature of the proceeding at

judgment and structural defect as her expressed intent as

which an injunction against free speech was granted and

revealed in the RT was to terminate petitioner from ever

held that the fullest presentation and consideration of the

filing any more papers even on appeal. The high court

matter is required (Id.p. 181). It held that both parties are

noted the Mathews v. Eldridge risk of error was high when

29

30

both parties do not participate at the hearing nor in

Constitution Free Speech as affirmative defense or claim of

reviewing the injunctive order to voice any objection (Id.p.

right or privilege. Our case involves U.S. Constitution

184). Furthermore motion to remove status can be made

Petition Clause and other Clause rights and there are

only once every year and continues the inflexible

findings and conclusions that they were not violated (Appx

unconstitutional infringement of speech for 363 days. The

9 A&B). The high court noted the expressions of

high court noted the different roles that the United States

congressional intent authorizing prior restraint of speech in

First Amendment can apply namely (1) as an immunity

the labor context (Id. Fn. 7); yet, in our case there is no

[aff. defense], (2) as a right [claim] and (3) as a privilege

legislative history Law Revision Commission comment that

[claim or aff. defense]; and noted that punishment after

discloses the reasons for enactment of Code of Civ.Proc.

speech has been the regular ordinary rule of law because it

391.7. Even in the cited case 10 days was held to be too

can be tailored to precisely pinpoint the facts warranting it

long for judicial review; yet in our case Code of Civ.Proc.

in an existing case (Id.p. 180-181). In our case as the RT

391.7 authorizes 7 years (2555 days-the same amount of

revealed neither Trial judge nor Respondent wanted any

time Cal. Evidence Code presumes a person be dead if not

punishment, nor a bond, nor any more sanctions; rather the

heard from) during which the prior restraint is operative;

only thing they wanted was an order prohibiting filing of

and, the Code of Civ.Proc. 128.7 prior restraint has no

any new litigation from Petitioner. But such wants were

expiration date at all. In our case Jane L. Marsh’s separate

beyond their power to produce due to failure to respect U.S.

property was unconstitutionally seized and distributed on

31

32

ex parte basis in probate because the court of appeals in

was not effective to accomplish the goal of termination of

G044938 ordered her to file in the court sitting in probate

any new filing by Petitioner. Code of Civ.Proc. 391.7 does

and because no censor permission order existed in writing,

not provide for constitutionally reliable judicial

although writing was not required by Code of Civ.Proc

determination nor review. The High Court echoed the rule

391.7, to authorize opposition to the sale and distribution

that any system of prior restraints comes to that court with

so Respondent laundered $640,000 of Jane L. Marsh’s

a presumption against its constitutionality (Id.p. 18), yet

separate property as part of Monroe’s estate in their sale

Code of Civ.Proc. 391.7 places the burden of persuasion and

and distribution scheme. The High Court noted that the

proof on the vexatious litigant. The unconstitutional

legal standards in the cited case were inescapably

burden regarding evidence was beyond the California

imprecise (Id.p. 183); and in our case the statutory scheme

Legislature’s capacity to enact when challenged as

including Code of Civ.Proc. 391.7 suffers from vagueness

violating the 1st Amendment.

and overbreadth as well. In California the appellate courts

U.S. v. James Daniel Good Real Property (1993) 510

relish its license permit system, its overbreadth, and the

U.S. 43, 49, 50 [114 S.Ct. 492, 126 L.Ed.2d 490] hel d that

required mending of his ways, as noted by Luckett v.

when a search and seizure occurs, various and different U.

Panos (2008) 161 Cal.App.4th 77, 81, 83, 94. 96 and In re

S. constitutional causes can be violated; and, the proper

R.H. (2009) 170 Cal.App.4th 678 [88 Cal.Rptr.3d 650]; and,

question is not which Clause or amendment controls, but

that is why Trial judge herself said Code of Civ.Proc. 128.7

whether any Clause or amendment was violated. The Due

33

34

Process Clause was violated because the seizure was

privileges, and immunities, by way of imposing a prior

authorized only by an ex parte order instead of a adversary

restraint? The High Court cited its prior decisions in

hearing proceeding. In our case co-executors seized Jane L.

Schneider v. State of New Jersey, Town of Irvington (1939)

Marsh’s property ex parte. This is because the effect of the

308 U.S. 147 [60 S.Ct. 146, 84 L.Ed. 155], Cantwell v. State

prefiling G044938 opinion and the lack of standing law of

of Connecticut (1940) 310 U.S. 296 [60 S.Ct. 900, 84 L.Ed.

the case in its 6th opinion and the statutory prior restraint

1213], Thomas v. Collins (1945) 323 U.S. 516 [65 S.Ct. 315,

orders prevented any contest on the merits.

89 L.Ed. 430], Marsh v. State of Ala. (1946) 326 U.S. 501,

Dennis v. United States (1951) 341 U.S. 494 [71 S.Ct.

508-509 [66 S.Ct. 276, 90 L.Ed. 265], as well as its cases in

857, 95 L.Ed. 1137] is cited for the contention that in our

Gitlow, Fiske, Dodds, and DeJong (Id.p. 507) which held

case the lower court should have asked itself these

that the state interests in those cases did not rise to the

questions: At all three phases of the vexatious litigant

level of a substantial state interest because only isolated

scheme is the nature or gravity in the context of probate

dangers existed. The High Court at Fn. 5 cited cases where

proceedings of losing 5 matters during the 7 year period,

clear and present danger analysis has been applied as

etc., discounted by the improbability of causing unfair

relevant to the validity of a state statute and that is what

administration of justice in the present or any future case,

this petition for certiorari challenges. Because the co-

of such a substantial state interest as to justify invasion of

executors filed no Notice of New Litigation in the trial court

the United States constitution free speech rights,

with regards to their final probate distribution proceeding;

35

36

and, because no appeal brief or ROA of its determination

2705, 177 L.Ed.2d 355] with regards to the Liberation

was allowed thereafter, there was no opportunity to serve

Tigers of Tamil Eelam. In our case the Judicial Council

either the California Attorney General or the United States

Vexatious Litigant blacklist is created after the prior

Solicitor; but, they were served with this Petition because

restraint is imposed; not, before. Jane L. Marsh’s pleadings

the attack is on the face of the vexatious litigant statutory

were supported by documents establishing that the court

scheme including Code of Civ.Proc. 391.7. Were there any

sitting in probate had no subject matter jurisdiction of her

other available remedies? Yes. In our case numerous other

separate property and were contained in the judgment rolls

remedies including demurrers, all pretrial proceedings to

starting from G044938. That evidence itself impeached that

dismiss, posting of bond, more sanctions, criminal

opinion and every subsequent opinion and order generated

prosecutions etc. The High Court in Dennis (Id.p. 498) and

by the court sitting in probate against her and her estate,

in Douds (70 S. Ct. 674) (Id p. 376) noted that Congress

and it was far more than this court found sufficient to

made findings of fact before passage of the statute that

support attorney Brilliant’s pleadings in Surowitz v. Hilton

Communists who held labor union offices presented a

Hotels Corp. (1966) 383 U.S. 363 [86 S.Ct. 845, 15 L.Ed.2d

substantial injury to the interstate commerce. Similar

807]. Jane L. Marsh did appear by Court Call and filed

findings of fact by Congress and an Attorney General

numerous declarations as the ROA reveals contrary to trial

blacklist were made and taken note of in Holder v.

judge determination.

Humanitarian Law Project (2010) 561 U.S. 1 [130 S.Ct.

37

Members of City Council of City of Los Angeles v.

38

Taxpayers for Vincent (1984) 466 U.S. 789 [104 S.Ct. 2118,

(Id. Fn. 12). When in G058123 the appeals court referred to

80 L.Ed.2d 772] is cited for the contention that Code of

G054796 which referred to its 6th appellate opinion as a

Civ.Proc. 391.7 by not requiring proof of a prior

permanent bar to standing it swept in prohibition against

adjudication of unconstitutional speech makes it overbroad

consideration of new facts and law and prohibition against

in every case. Objective frivolity and subjective intent are

rehearing due to fraud, inadvertence, or other imposition

both required nothing less. The high court at Fn. 15 cited a

which caused a miscarriage of justice. The Court of Appeals

list of cases giving enforcers of prior restraint statutes

6th opinion said that it was on the merits however that

insufficient standards and in our case that is what Code of

appeal was from the order confirming sale of real property

Civ.Proc. 391.7 does for federal and state judges and

wherein Estate of Jane L. Marsh was adjudged not to be a

justices.

person interested in the estate who could participate and

Vance v. Universal Amusement Co., Inc. (1980) 445 U.S.

counsel was asked to leave counsels table and hence there

308 [100 S.Ct. 1156, 63 L.Ed.2d 413] is cited to support the

was no determination of the merits per St. Romes v. Levee

contention that the Court of Appeals lack of standing

Steam Cotton-Press Co. (1888) 127 U.S. 614, 519 [8 S.Ct.

opinions themselves constitute prior restraints just as did

1335, 32 L.Ed. 289] [dismissal of suit for want of parties

Code of Civ.Proc. 391.7 and Code of Civ.Proc. 128.7. Yet

does not render the subject of controversy res judicata. It

standing to complain of them existed due to overbreadth

leaves the merits undisposed of.] It prohibited

because the danger of sweeping and improper application

consideration of the matters left open in G044938 [Westlaw

39

40

version p.4]:

restraint on petition and association clause activity. So

“By virtue of that consolidation the Oct 7 order
[dismissing Jane L. Marsh’s civil cause] cannot really be
considered the final judgment in the consolidated
proceeding since any number of appelable orders within
the 1535 probate action would remain for the future.”

does our case. In all First Amendment cases the United

Misuse of the law of the case doctrine was a form of

whether the court acted ultra virus and in excess of

States Supreme Court is concerned with the statute on its
face and as applied, namely its purpose and effect but not

prior restraint on future petition clause activity after the

authority given to it by statute (Id.p. 708-709). In our case

appeals court realized its res judicata reasoning was

Cal Constitution Art 1 section 1 prohibited prior restraints

inapplicable. Prior restraints have appeared in our case

and hence the U.S. Constitution 10th amendment

from sustained demurrers to pleadings, to motions, to

prohibited the California Judiciary or Legislative branches

appeals, to res adjudicata, to statutes, to minute orders, to

from imposing prior restraints. Neither California’s

written judicial opinions.

Judiciary or Legislative branch can infuse 10th amendment

Near v. State of Minnesota ex rel. Olson (1931) 283 U.S.

power in themselves when under its own constitution Art. 1

697 [51 S.Ct. 625, 75 L.Ed. 1357] involved a grant of

Sec. 26 such power was prohibited to them. If the judiciary

certiorari because the case raised questions of grave

could prohibit the first publication they could have a

importance to the administration of justice beyond the

complete system of censorship (Id.p. 721). In our case Code

interests of the particular parties (Id.p. 707), namely the

of Civ.Proc. 391.7 provides a complete system of censorship

limits of the legislative and judicial branch to impose prior

from the declaration of status, to filing of any new

41

42

litigation, to its review, and even in the request to remove a
person’s name from the Judicial Council list. They are all
undertaken without any prior adjudication of unlawful
speech and without adversary hearing before the censor
judge who makes the latter 2 decisions. Viewpoint
censorship is just as fatal as content censorship and Trial
judge grounded her Code of Civ.Proc. 391.7 prior restraint
order on a finding that the same patterns of writing could

they are not statutes.
The following are quotes to support petitioners
overbreadth challenge.
"It takes a person with a mission to succeed." ~ Clarence
Thomas, Supreme Court Justice. "The liberties of none
are safe unless the liberties of all are protected." ~
William O. Douglas, Supreme Court Justice. "I didn't
fail the test, I just found 100 ways to do it wrong." ~
Benjamin Franklin. "...the Constitution will endure as a
vital charter of human liberty as long as there are those
with the courage to defend it, the vision to interpret it,
and the fidelity to live by it." ~ William J. Brennan Jr.,
Supreme Court Justice.

only come from the same speaker.
The prior restraint orders are equal to badges of
Koontz v. St. Johns River Water Management Dist.
slavery, badges of infamy which may have been motivated
(2013) 570 U.S. 595, FN2 [133 S.Ct. 2586, 186 L.Ed.2d 697]
by retaliation or intolerance to petitioners legal opinions by
as applied to our case held that the remedy for imposing on
the Respondent or lower courts. They are like
Jane L. Marsh the “unconstitutional condition” of speaking
conservatorship orders blocking liberty of speech. Petitioner
probate or not speaking at all, is to set aside the appeal in
argument is to annul them-‘tear down the wall Mr
G044938 and all subsequent opinions and orders grounded
Gorbachof’, as President Ronald Regan said.
on it. The doctrine of unconstitutional condition may
replace 1st Amendment in challenge to court opinions since

43

"The Press was to serve the governed, not the
governors." ~ Hugo Black, Supreme Court Justice. "The
Press was protected so that it could bare the secrets of
44

the government and inform the people. Only a Free and
Unrestrained Press can effectively expose deception in
government. And paramount among the responsibilities
of a Free Press is the duty to prevent any part of the
government from deceiving the people." ~ Hugo Black,
Supreme Court Justice. "Only a Free and Unrestrained
Press can effectively expose deception in government." ~
Hugo Black, Supreme Court Justice. "Law and order
exist for the purpose of establishing justice and when
they fail in this purpose they become the dangerously
structured dams that block the flow of social progress."
~ Martin Luther King. "...debate on public issues should
be uninhibited, robust, and wide-open and it may well
include vehement, caustic, and sometimes unpleasantly
sharp attacks on government and public officials." ~
William J. Brennan Jr., Supreme Court Justice. "The
remedy for speech that is false is speech that is true.
This is the ordinary course in a free society. The
response to the unreasoned is the rational; to the
uninformed, the enlightened; to the straight-out lie, the
simple truth." ~ Anthony Kennedy, Supreme Court
Justice. "Whenever I hear anyone arguing for slavery, I
feel a strong impulse to see it tried on him personally."
~ Abraham Lincoln. "I am a firm believer in the people.
If given the truth, they can be depended upon to meet
any national crisis. The great point is to bring them the
real facts." ~ Abraham Lincoln.
C. NO FULL FAITH AND CREDIT CAN BE GIVEN
TO APPELLATE OPINION IN GO58123 BY THIS COURT

Credit Clause judgments are “mere evidence” of “rights”
(Id. p. 462-3). Under the common-law and international law
existing when the constitution was created, every person
had the right to impeach a judgment by showing want of
fundamental jurisdiction (Id. p. 468). In our case the Court
of Appeals deprived the appellants of same by ruling its
opinions imparted absolute verity permanently and for all
times and especially ever since its 6th opinion and so the
U.S. Constitution Full Faith and Credit Clause is
applicable to declare such evidence insufficient in this
federal court today. Jane L. Marsh’s interest in undisputed
community accumulations were shown in her accounting
appendix facts and figures which were a part of the
judgment roll in G044938, and thereafter incorporated by
reference in all future ROA’s, as they were part of Jane L.
Marsh’s pleadings and pleadings are part of the judgment

Thompson v. Whitman (1873) 85 U.S. 457 [21 L.Ed.
roll under Probate Code 1050.
897] held that under the U. S. Constitution Full Faith and
45

46

Bond v. U.S. (2011) 564 U.S. 211, 222 [131 S.Ct. 2355,

without Jane’s prior written consent. The injury is

180 L.Ed.2d 269] held that a person has standing to

redressable by vacating and annulling all or selective

complain of a separation of powers violation just as he has

opinions of the trial and Appeals Court. Although Steven

the right to complain of a violation of the U.S. Constitution

Marsh, one of the 2 co-executors of Monroe died before the

10th amendment state powers if he suffers an injury

final distribution proceeding, his attorney contended as the

caused by a State Actor action taken in excess of its

RT reveals and Commissioner Hall agreed, that the

authority. Petitioner cross-complaint re the probate final

proceeding was a mere formality an that the other co-

distribution petition so complained against Monroe Marsh’s

executor need not appear either althouh Monroe’s will

co-executors who had received substantial state actor

required two. Marsh’s wife is the personal representative of

assistance under Tulsa Professional Collection Services,

his estate appointed by the courts in Utah 4th District case

Inc. v. Pope (1988) 485 U.S. 478 [108 S.Ct. 1340, 99

number 193500027 and a creditor’s – property claim was

L.Ed.2d 565]. In our case the injury is to the U.S.

filed and served upon her attorney in Utah but no

Constitutional rights, privileges and immunities, as well as

substitute co-executor has entered any appearance yet. The

the possession and title interest in the Irvine condo. There

co-executors briefs in G052082 and G052208 at footnote 1

was another $820,000 cash loss regarding community

admitted and conceded that the $640,000 cash was Jane L.

accumulations that Monroe gave away to his co-executor

Marsh’s separate property and formed their own opinion as

and members of their family and others during his life

to its forfeiture into Monroe’s estate. See RT of 8-2-17 at

47

48

15:21 through 16:4. Their attorney Magro received some

They are all electronically preserved by Petitioner.

$530,000 out of Jane L. Marsh’s separate property for

Petitioner will in oral presentation not identify by name

attorney’s fees. Attorney Steven Magro’s joinder in the

any judge or justice in order to prevent disparagement on

distribution petitions expressly stated he was joining as

television network by the cable carriers.

party to the co-executors Petitions by self admission (Id. p.
20-21).
CONCLUSION
Certiorari is respectfully requested to show overbreadth
of California’s vexatious litigant statutory scheme

"Behind every argument is someone's ignorance." ~
Louis Brandeis, Supreme Court Justice. "The courts of
this country should not be the places where resolution of
disputes begins. They should be the places where the
disputes end after alternative methods of resolving
disputes have been considered and tried." ~ Sandra Day
O'Connor, Supreme Court Justice. "Justice denied
anywhere diminishes justice everywhere." ~ Martin
Luther King, Jr. "Either write something worth reading
or do something worth writing." ~ Benjamin Franklin.

including Code of Civ.Proc. 391.7 whether or not petitioner
History repeats itself and as current Justice Roberts
is himself a vexatious litigant. Petitioner will in preparing
recently commented we have a new dynamic in speech-3
for presenting the opening brief, oral argument, and ROA,
minute speech clips. Petitioner believes he can inspire our
separate the gold from the garbage and not library
country during his brief oral argument presentation and
everything for sake of mere inclusion. Petitioner has cited
share his knowledge to educate our citizens so they do not
over 10,000 U.S. Supreme Court cases in his papers in the
have to repeat the 10 year nightmare the court of appeals
lower courts and developed invaluable ideas therewith. The
imposed on petitioner. Petitioner wishes to participate, not
ROA in the courts below may consist of over 80,00 pages.
in a Irish parade as in this Courts Hurley Case; but, in the
49

50

structured judicial process and waive the banner of free

Amendment because under Cal. Constitution Art. 1 Sec.

speech not only for petitioner; but, as a private attorney

2(a), Art. 6 Sec. 4, Art. 6 Sec. 3, Art 6 Sec 11(a), the rights

general for the benefit of persons in the United States of

and duties thereunder are made mandatory and

America.

prohibitory under Art 1 Sec. 26, thus precluding its

"Public sentiment is everything. With public sentiment
nothing can fail; without it nothing can succeed. He who
molds public sentiment goes deeper than he who enacts
statutes or pronounces decisions. He makes statutes or
decisions possible or impossible to execute." ~ Abraham
Lincoln.
Certiorari should be granted to consider whether Full

Legislature from enacting inconsistent statutes. Certiorari
should be granted to determine whether the Due Process
(substantive and procedural components), Association,
Equal Protection, Excessive Punishment, and Search and

Faith and Credit can be given to the appellate opinion in

Seizure have been violated as applied to the facts of this

G058123 and other of its specified opinions therein,

case. Certiorari should be granted to consider whether

because under Cal. Constitution Art. 1 Sec. 2(a), Art. 6 Sec.

declaring the grant deed to the Yi’s is void because the

4, Art. 6 Sec. 3, Art 6 Sec 11(a), the rights and duties

Irvine condo belongs to Jane L. Marsh and now her Estates

thereunder are made mandatory and prohibitory under Art

and is necessary to remedy the above alleged violations.

1 Sec. 26, thus precluding its Judiciary from exercising its

Petitioner has no adequate remedy at law left in the

jurisdiction and rendering valid adjudications. Certiorari

California state courts and has no other source to seek

should be granted to consider whether California has

relief from to prevent a $1.3 million dollar miscarriage of

exceeded the power reserved to it under the 10th

justice nor uphold U.S. Constitutional rights privileges and

51

52

immunities. God save us. God bless United States of
America.
Michael A. Weiss
63 Lakefront
Irvine, CA 92604
949 654-9919
michael-weiss@msn.com
Petitioners Counsel

53

